 Department of Health and Human Sefices

ADMINISTRATION ON AGING
           AND
        OFFICE OF
   INSPECTOR GENERAL




                                          I

                                          I
                                          i




                   APRIL 19%
                              ADMINISTIWTION ON AGING

The Administration on Aging (AoA) is the principal Federal agency designed to carry out the
provisions of the Older Americans Act (O&!). It advises the Secretary of Health and Human
Services and other Federal agencies on the characteristics, circumstances and needs of older
individuals. Further, it develops policies, plans, and programs designed to promote their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest program -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization of older individuals. The second program -- Title W -- consists of
discretionary grants with the same purpose as Title III, but to meet the unique needs of older
Native Americans. The third program -- Title IV -- is also discretionary. Its purpose is to fund
research, demonstration, and training activities to elicit knowledge and techniques to improve
the circumstances of older Americans. (The 1992 Amendments to the OAA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. Prior to the 1992 Amendments, Title III of the OAA provided the
funds for these activities.)

                            OFFICE OF INSPECI”OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. nis
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, venerability,
and effectiveness of departmental programs.

                                        THIS REPORT

This report is the result of a joint effort between AoA and OIG/OEI to assess the
implementation of Title III of the Older Americans Act. OIG staff in the New York and
Dailas regional offices provided technical support to the joint project. AoA staff in New y~r~
and Dallas directed the project with all regional offices participating in the development Of
instruments and data collection.

For additional information, please contact:

AoA            John Dia~ Regional Program Director-Dallas                   214-767-2971
OIG            Jack Molnar, Project Leader-New York                         212-264-1998
      Department of Health and Human Services

    ADMIN STRATION ON AG NG
               AND
            OFFICE OF
       INSPECTOR GENERAL




      STATE IMPLEMENTATION   OF THE
    TARGETING   REQUIREMENTS   OF THE
          OLDER AMERICANS ACT




I                    e      A
                EXECUTIVE                         SUMMARY
PURPOSE

To review State Units’ on Aging (SUA) implementation       of the targeting requirements
of Title III of the Older Americans Act (oAA).

BACKGROUND

In an effort to strengthen its stewardship of the 0~    the Commissioner of the
Administration on Aging (AoA) requested technical assistance from the Office of
Inspector General (OIG) in designing a review of their primary Title III grantees --
SUAS. After reviewing traditional and current stewardship activities, and discussing
potential approaches for future efforts, we agreed that a review of individual States
would be instituted in such a way as to provide the Commissioner with an overview of
how States are implementing key components of Title 111. In order to conserve
limited travel funds the reviews would be conducted on a sample of States and would
focus on only five programmatic areas -- stewardship, targeting, ombudsman, nutrition,
and financial management.

This report on targeting addresses the requirements that special consideration be given
to providing services to those of greatest economic or social need, with special
emphasis on low-income minorities. It focuses on issuing guidance on and monitoring
implementation of the key requirements of Title III of the O-      including the area
planning process.

METHODO~GY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. In the first step of
the sampling process, States were divided into four strata based upon the number of
older individuals in each State. In the second stem five States were selected from
each stratum. This stratified, random sample per’rnits a generalization of findings from
the 20 sample States to the Nation.

FINDINGS

Ta~eting Hw Become Common         I%actice Among State And Area Agencies

   �   State agencies conduct meetings and coordinate with other agencies
   �   Area Agencies rely on outreach, specialized services, and provider and site
        selection




                                              i
Littlk Attention   Is Given To Evalzuztikg Ta~eting Acfivitkx

   �   Only 40 percent of States and half of area agencies evaluate outreach

State Agencies Repfl -~ “          In Meeting Requirements      On Ihdividudk   With Limited
Englkh Speaking Ability

   �   While only one-third of States have established designation criteria, half of the
       States designate area agencies as having substantial individuals with limited
       English-speaking ability

Whzk States Unddake        Ta~eting Initiatives, Z7iey Report Baniem To Impkmenation

   �   States see lack of funding and data on low income minorities as the primary
        barrier to effective targeting

State Agencies Are I?ovidikg    Technical Assktance   And Seeking It From AoA

   “ Three-quarters of States provide area agencies with technical assistance
   � Two-thirds want more guidance from AoA




                                                ii
                          TABLE                 OF CONTENTS


EXECUTIVE            SUMMARY            ......     .   .   .   .   .    .   .   .   .   .   .   .   .   .   .   .   .   .    .   .   .   ...=...                 ...o~oooi




INTRODUCTION                .......................................                                                                                .....=..001




FINDINGS


    �
        Targeting Is Common Practice             . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”=””=”=
                                                           4

    �
        Little Attention GivenTo          Evaluation                   . . . . . . . . . . . . . . . . . . . . ...”                                              .“.”””-”
   6

    �
        Requirements On Individuals With Limited English-Speaking Ability Present

         Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. =. . . ..=. ===” ==oooo “O
7

    �
        States Report BarriersTo          Targets . . . . . . . . . . . . . . . . . . . . . . . . . .=..”-=””
                                      �
                                                                                                                                                                             8

    �
        State Agencies Provide Targeting Technical Assistance                                                               . . . . . . . . . . . . . . . . . . .
 8


APPENDICES


A       Appendix A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..= ..0 ““A-l

                         INTRODUCTION
PURPOSE

To review State Units’ on Aging (SUA) implementation of the targeting requirements
of Title III of the Older Americans Act (OAA). In this report, the term “targeting”
refers to the requirements that special consideration be given to providing services to
those of greatest economic or social need, with special emphasis on low-income
minorities. It focuses on issuing guidance on and monitoring implementation of the
key targeting requirements of Title III of the OAA, including the area planning
process.

BACKGROUND

Under the 0~      the Administration on Aging (AoA) serves as the principal Federal
advocate for older individuals, providing national leadership in the development of
programs to address their needs. Through Title III of OAA (Grants for State and
Community Programs on Aging), AoA encourages and assists SUAS and area agencies
on aging (AAAs) to implement a system of coordinated community-based services to
prevent the premature institutionalization of older individuals by allowing them to
remain in their own community.

Under Title III, AoA distributes approximately $765 million in formula grants to States
based on the age 60+ population within each State. The SUAS use about S percent
of the grant on administration, and then fund AA% who then contract for the
supportive services, nutrition services and multipurpose senior centers. The single
largest component of Title III, the nutrition program, provides approximately $450
million for congregate and home-delivered meals. Other key program components
include supportive services (i.e., access services, in-home services and legal assistance)
and the Ombudsman program which serves as an advocate for residents in long term
care facilities.

One of AoA’s major administrative responsibilities is to provide stewardship over the
States’ implementation of the Title III program. However, AoA’s capacity to carry out
its stewardship responsibilities declined substantially during the 1980’s due to a
significant reduction in resources. More specifically, AoA sustained a 47 percent
reduction in staff and 75 percent reduction in travel funds. Each regional office had
only $2,000 annually for travel. Because they could not monitor SUAS’, AoA became
further and further removed from the activities of the SUAS and their area agencies
on aging.

In efforts to strengthen its stewardship of the OAA, the Commissioner of AoA
requested technical assistance from the Office of Inspector General (OIG) in
designing a review of their primary Title III grantees -- SUAS. In response to the
Commissioner’s request, OIG staff met with key AoA headquarters and regional staff



                                             1
to identi~ traditional and current stewardship activities, and to discuss potential
approaches for future efforts. As a result, we agreed that the review of individual
States would be instituted in such a way as to provide the Commissioner with an
overview of how States are implementing key components of Title III. The OIG
agreed to assist AoA in developing national, standardized review instruments for key
components of Title III and in writing a report summarizing States’ implementation of
the Act. We also agreed that in order to conserve limited travel funds the reviews
would be conducted on a sample of States and would focus on only five programmatic
areas -- stewardship, targeting, ombudsman, nutrition, and financial management.

Designing the review began with the meeting of a review team of OIG and selected
AoA regional staff. They brainstormed approaches, identified Federal reporting and
operating requirements for SUAS and AA& and drafted instruments containing the
review questions and criteria. The draft instruments were shared with AoA
headquarters staff and each regional office for comments, and then revised to reflect
comments.

The OIG/AoA review teams pre-tested the instruments and data collection
methodology by conducting reviews for each of the five instruments in six States
located in four different Federal regions. The pre-test identified that a great deal of
time was lost explaining criteria (interpreting law and regulation) and searching for
documentation. Accordingly, the review team modified each of the instruments and
changed the data collection methodology. The most significant change to the
methodology required the sharing of the review instruments with the States prior to
the site visit in the belief that if States are aware of and understand the review criteria
being used during the review, they will be better prepared to provide required
documentation and to discuss specific issues.

METHODOIXIGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. These are the same
data used to allocate Title III funds among States. In the first step of the sampling
process, States were divided into four strata based upon the number of older
individuals in each State. In the second step, we selected five States from each
stratum. This stratified, random sample permits us to generalize findings from the 20
sample States to the Nation. Table I indicates those States selected for the review
process (See Table I).

We also used sampling techniques during site visits to each State for the reviews of
specific area plans and assessments.  In these instances, we selected a simple, random
sample of 10 AAAs prior to the visit to review on-site. For those States with less than
10 AAAs, all AAAs were included in the review.




                                             2

                                        TABLE I


                                 SAMPLE STATES
        Stratum 1           Stratum 2           Stratum 3         Stratum 4
   California           Michigan               Wisconsin    New Hampshire
   Pennsylvania         Indiana                Colorado     North Dakota
   New York             Massachusetts          Oklahoma     Nevada
   Texas                Georgia                Maine        District
   Florida              North                  Oregon         of Columbia
                           Carolina                         Montana


The data collection was conducted in two phases -- an AoA regional office desk
review and an on-site review at the SUA. During the desk review phase, we looked at
area plan guidance and program instructions, as well as the State’s assessment
instruments for AAAs to determine if they are consistent with Federal law and
regulations. We also reviewed priority services waivers and targeted populations
participation data from the State Program Report for Title III.

Following the desk review, each State was sent a proposed agenda for the site visit, a
listing of the AAAs whose area plans and assessment reports will be reviewed, a copy
of the targeting review instrument (Appendix A), and the findings from the desk
review to be discussed during the site visit.

The review instrument focused on the guidance SUAS issued to AAAs, on key
requirements of Title III, and on the instruments and procedures they use to assess
AAAs with those requirements. A review of area plans and assessment reports
determine whether, and to what extent, they reflect OAA requirements. The
instruments also focus on the issues of SUA operating procedures, and on training and
technical assistance activities.

We entered data from the targeting review instruments into three databases. One
database contained the responses to the open- and closed-ended questions on the
instrument and the other two contained the reviews of 151 area plans and assessments.
The number of responses to questions vary because some questions did not apply to
the four States in Stratum 4-- NH, ND, NV, & DC -- which are single planning and
service area (SPSA) States.

The percentages cited in this report are based on the responses to specific questions
contained in the review instrument. The responses are weighted to reflect the sampling
plan and are projected to the Nation. The precision at the 90-percent confidence
intervals vary for each question from plus or minus 6 to 21 percent based upon the
nature of the question (categorical or continuous) and the number of respondents to
each question.


                                           3
                                 FINDINGS
TARGETING       HAS BECOME COMMON PRACI’ICE AMONG SUAs AND AAAs

While all persons age 60 or over are eligible for services under the Older Americans
Act (OAA), the act requires that special consideration be given to targeting services to
those in greatest economic or social need. Special emphasis is given to low-income
minority older persons. This is achieved through specific planning, evaluation and
delivery of services outlined in the Act.

State Activik

Virtually all States (95 percent) have undertaken specific activities in support of
targeting within the last two years. State agency activitiesinclude both State level
initiatives and those directed at AAAs. The most common State level initiatives are
coordinating activities with other organizations (90 percent) and conducting meetings
and conferences (88 percent).

The SUAs coordinate with a range of other organizations, on multiple issues related to
targeting. This includes organizations for minority, disabled and rural individuals, as
well as organizations for older individuals, such as the American Association for
Retired Persons (AARP).      It also includes national organizations like National
Association for the Advancement of Colored People (NAACP) and the National
Association of State Units on Aging (NASUA), and local groups such as minority
churches and technical colleges. The organizations for the disabled most commonly
represent the blind, deaf and developmentally disabled, or focus on rehabilitation.
Rural organizations addressed such concerns as health, transportation, eldercare, or
the needs of migrant farm workers.

The meetings and conferences SUAs host on targeting take two forms -- periodic and
one-time events. The periodic meetings most often are in-service training for State
staff or regular conferences for AAAs. The regular W          conferences could be for
specific staff, such as planners, outreach workers, volunteers or nutritionists, or for the
AAA association. In single planning and service area (SPSA) States, these are
meetings for providers. The one-time conferences are most often State-wide events
open to all members of the State’s aging network. These conferences seem to focus
on either specific target groups such as minority women, Indians, disabled, and
minorities in general, or on specific subjects including SS1 outreach, health promotion,
information and referral (I&R), and elder abuse.

Among the less frequently noted State targeting activities is altering the intra-state
funding formula (24 percent). This is lower than anticipated given AoA policy in the
form of AoA Program Instruction (PI) 90-01 which establishes review criteria for intra-
state funding formula. The PI notes the value of using the intra-state formula to
promote targeting and seeks to determine if formula reflect the proportion among the
PSAS of persons age 60 and over in greatest economic or social need, with particular
attention to low-income minority individuals.

State agency targeting activities with M   most frequently include providing technical
assistance (90 percent), monitoring AAAs’ targeting efforts (86 percent), and issuing
policy guidance (84 percent).

State agency provide technical assistance on targeting to both AA/M and providers.
This is done through site visits, newsletters, and the above noted conferences. Some
of the topics for this technical assistance include: affirmative action; Spanish language
training opportunities; alzheimer services; outreach to Indians; and information on
best practices.

The SUAS’ monitoring of AAA targeting efforts takes two forms -- use of reporting
systems and reviewing area plans. Regarding reporting systems, 70 percent of States
said they used standard reports from M         and providers to monitor targeting efforts.
Most frequently these provide program participation data on a quarterly or semi-
annual basis. States compare rates of participation with such indicators as area plan
goals, previous year participation, or State targets. Related to the latter, we noted
that 52 percent of States have established participation rates for AAAs. Generally,
the goals are to serve target groups in at least the same proportion they represent in
the total population at large or the 60+ population.

In using the area planning process to monitor targeting efforts, SUAS focus on both
the actual plan and updates, and on periodic assessments of implementation of the
plan. With regard to the area plan, SUAS either have targeting review criteria,
establish targeting objectives, or add a targeting exhibit to the area plan format. Also,
targeting criteria are often included in assessment instruments or in performance
reports. Less often SUAS conduct special analyses of AAA or provider targeting
efforts or review the annual evaluations of the effectiveness of outreach.

State policy issuances on targeting are used to establish responsibilities and standards,
or operating procedures. Examples include listing AAA and provider responsibilities,
defining target populations, and establishing performance standards for outreach. We
noted operating procedures for affirmative action in hiring staff and for giving
preference to minority providers.

Local Activities

All States noted local targeting activities. The targeting activities of AAAs and
providers most often include outreach (100 percent), specialized services (96 percent),
site selection (86 percent), and provider selection (77 percent).

Under the broad rubric of outreach, States reported traditional activities such a door-
to-door canvasing and information and referral (I&R), but they also reported other
activities. These include recruiting minority and bilingual staff, working with other


                                             5
organizations, and using media. The media efforts range from public service
announcements and pamphlets to public speaking engagements. Recruiting minority
and bilingual staff is seen as an effective way to bridge cultural barriers. The
strategies using other organizations ranged from working with AARP, churches,
doctors, and discharge planners to seeking to educate leaders in the minority
community.

Specialized services is a broad term referring to services for specific populations. The
most commonly reported specialized service is ethnic meals used to attract older
individuals to congregate meal sites where they can be referred to other services.
Specialized services also include translatinghealth, utilityand other public service
announcements or pamphlets, and running literacy programs. For the frail elderly,
specialized services include transportation, companion services and adult day care,
mobile health screening, and legal and representative payee services.

Provider selection is an effort to recruit minority providers into the aging network,
because they are seen as being better able to serve target populations. The AA& use
a number of tactics to recruit these providers. They invite minority providers to pre-
request for proposal conferences designed to help them quali~ for the contract and
then widely advertise the request for proposal in minority newspapers. They also ask
minority providers to help draft the request for proposals. Others use administrative
procedures such as using sole-source contracts, issuing policy giving preference to
minority providers, or establishing a set-aside fund for targeting services.

Site selection is the practice of locating services in the target community; most
frequently this is a minority or low-income community, or a senior citizen housing
project. While site selection is a generally effective form of targeting, it can present
service providers with difficult decisions. For example, in an era of level funding,
providers of service often must de-fund an established site in order to create a new
one in a more suitable location.

LITI’LE ATTENTION GIVEN TO EVALUATING TARGETING ACHWTIES

While SUAs’ report numerous targeting efforts, they have little documentation of their
effect. When asked to identify the AAA targeting activities that were the most
successful in increasing target populations, SUAS cited outreach (44 percent), site
selection (43 percent), specialized services (30 percent), and recruiting minority
providers (24 percent).    SUAs further noted site selection (60 percent) and having
minority or bilingual staff (38 percent) as the most successful methods used by service
providers to address the service needs of low-income minorities. About half (55
percent) of the States determine the success of their M        targeting efforts or methods
to serve low-income minorities through reported increases in program participation
rates. Others (17 percent) who offered an opinion on successful methods report that
they rely on anecdotal information as an indicator. For example, one of these States
said, “it’s assumed they [targeting efforts] are successful.” Another 20 percent of
States report that they did not know how to determine the success of targeting.


                                             6
While most States rely on program participation reports to assess targeting efforts,
they note weakness in that data. States report the primary factors affecting
participation trends are improved reporting which provides a more accurate count
than in previous years (35 percent) and demographic changes (34 percent).
Improvements to a reporting system cause a lower, albeit more accurate, count. Other
factors include an increase in target populations (20 percent), level funding coupled
with increased costs, resulting in fewer people that can & served (19 percent), and the
aging-in place process (13 percent).

Another potential key to assessing targeting efforts are the required evaluations of
outreach. Sections 306 (a)(6)(A) and 307(A)(8) of OAA require an annual evaluation
of the effectiveness of outreach. Only 39 percent of States report conducting the
annual evaluation of the effectiveness of outreach to targeted populations required
under Section 307. Those States that did the evaluation said the use of media,
meeting with minority groups, and setting program goals were the most effective
outreach activities. Among the remaining States, 31 percent of States did not conduct
the annual evaluation and 30 percent did not know if the evaluation was conducted.

Regarding the Section 306 requirement that AAAs evaluate the effectiveness of their
outreach, only 49 percent of States report all their AAAs conducted the evaluation.
Another 29 percent of States indicate that they did not know if their AAAs conduct
this evaluation, and the remaining States report a range of 13 to 85 percent of their
AAAs conduct the annual evaluation. The probable reason for AAAs not doing these
evaluations is that some SUAS are not making them aware of the requirement. Our
review of area plan guidance found that 36 percent of SUAS do not include the
requirement for an annual evaluation of the effectiveness of outreach in their guidance
to AAA. We also noted that 47 percent of SUAS’ assessment instruments failed to
monitor compliance with this requirement.

SUAS REPORT DIFFICULTY IN MEETING REQUIREMENTS ON
INDIVIDUALS WITH LIMITED ENGLISH SPEAKING ABILITY

Under Section 307(a)(20) of OAA, SUAS must require that their AAAs address the
unique needs of their clients with limited English speaking ability. Specifically, SUAS
must identi~ AAAs with substantial numbers of older individuals with limited English
speaking ability who reside in their planning and service area. Those AAAs must then
use bilingual outreach workers and must designate an employee or have an individual
available to them to counsel and assist such individuals. We found that only 37
percent of States have developed criteria to make that determination, 29 percent did
not define “substantial numbers,” and 34 percent report they do not know. The SUAS
without criteria, report that they needed guidance from AoA in order to make an
assessment of “substantial numbers of older individuals.” The SUAS with criteria
defined “substantial” as more than 50, more than 100, 5 percent of the population, any,
and a greater percent in the county than in the State.




                                           7
We further determined that only 54 percent of States actually identified AAAs with
substantial numbers of older persons with limited English speaking ability.
Interestingly, half of these States had no definition or did not know if they had a
definition for substantial. Forty-eight AAAs among the sample States were identified
as having substantial numbers of target individuals with limited English-speaking
ability. For these AAAs, 42 have bilingual outreach workers, but only 22 have a full-
time worker or access to a person to counsel and assist such individuals.

WHILE STATES UNDERTAKE TARGETING INlTIATJS7ES, THEY REPORT
BARRIERS TO IMPLEMENTATION

States report that the most common barrier to effective targeting is a lack of funds.
More specifically, 63 percent of States report funding as a major obstacle to their
targeting efforts and 47 percent of States say funding is the most common deficiency
of AAA targeting efforts. They report that Federal funding has not increased during
this period of increased attention to targeting. The funds are needed to pay for the
increase in participation, to open new sites, and to contract with minority providers.
They also note that one of the target groups, the frail elderly, is more expensive to
serve. Yet States are realists. Only 30 percent expect AoA to make additional funds
available for targeting efforts.

There are other obstacles. States report that they still must address attitudes toward
targeting (47 percent), staff turnover (30 percent), and the need for training and
guidance on effective targeting (14 percent). Other less frequently noted deficiencies
of AAA targeting efforts are a lack of minority and bilingual staff, a low priority of
management, and a lack of transportation for the frail elderly.

In a separate question, 60 percent of States report they have difficulty in obtaining
data on low-income minorities, and 53 percent report their AAAs have the same
problem. Most cite inadequate census data as the cause. They note that the inability
to identify these individuals is a barrier to successful targeting.

States also identified a number of barriers confronting AAAs or their providers in
meeting the specific service needs of low-income minorities. These barriers include
funding limitations (40 percent), cultural barriers (31 percent), lack of transportation
(29 percent), lack of minority service providers (23 percent), and problems in
identi~ng and locating target populations (13 percent).


SUAS ARE PROVIDING AAAs WI’ITITECHNICAL ASSISTANCE AND
SEEKING IT FROM AoA

Three-quarters of States report providing training and technical assistance (T/A) to the
AAAs to address identified targeting deficiencies. Most frequently these efforts take
the form of conferences and written material.



                                             8
States are seeking targeting guidance from AoA. Sixty-two percent of States want
“technical assistance and training,” with a major emphasis on effective and practical
targeting techniques for addressing specific targeted populations. One State
recommended that AoA develop a “targeting technical assistance manual that would
delineate AoA’s expectations and policies, and highlight effective strategies.”

A third of the States request “policy and programmatic guidance and direction” on
AoA’s expectations of the network in targeting. For example:

              What is effective targeting?

              What does AoA mean by “preference to low-income minorities,”
              “substantial numbers of,” and “frail?”

              What are the most effective strategies that States’ and AAAs’ should
              undertake that would best address the service needs of targeted groups?

              How should the network address their mission of serving all 60+ and
              target efforts to those of greatest need in a time of limited funds?

Another third of the States reported a need for AoA’s assistance in obtaining timely
data (e.g., number of low-income and low-income minorities) from the Bureau of
Census or other sources.




                                             9
            APPENDIX      A




    Review Instrument   For Targeting




—
                            TARGETING                     COMPLIANCE                 REVIEW

                            Department of Health and Human Services
                                    Administration on Aging



State                                                                       Date

Primary Respondent                                                              Telephone

Review Team Leader                                                              Telephone


                           ----------------------------              -,.----------,------------     --




1.      In our earlier interview on stewardship, we discussed how your assessment instrument
        addresses targeting. What other procedures do you use to review and evaluate each Area
        Agency on Aging”s (AAAs) performance in targeting? (eg. on-site/desk review)?

        a.




        b.                                          if applicable)


2.      Did the State Agency undertake specific                            in                     targeting during the last two
        Federal fiscal years?

        a.             Yes (If Yes, go to question 3)
        b.             No (If No, go to question 4)
        c.             Don’t Know (If Don ‘t Kkow,                        to question



                                                             A-1
3.   Describe and give examples of the following activities undertaken by the State Agency in
     SUppOrtof targeting during the last two fiscal years. (Read list and check those with
     affinn~-ve responses. For each affirrn~”ve response, identi~ 2 examples of th~ activity,
     where applicable.    NOTE tha for each activi~ checked, there is a questi”on in the example
     box to ascertm”n how the activities improved/suppotied   targeting.  Get documenttiion of
     the effect (e.g., the increase j%om 10?io to 25% minority populti”on).)


                                ~CTIVITY                                EXMIPLES OF ~CTIVITY
      a.         Altered funding formula                         Not   ~pplicable
      b.         Monitored/assessed   AAAs                       (1)



                                                                 (4


                                                                 (3)     How did these activities
                                                                         improve/support targeting?




      c.         Conducted   training conferences.   meetings,   (I)
                 workshops

                                                                 (2)



                                                                 (3)     How did these activities
                                                                         improve/support targeting?
                   ACTIVITY                                   EX~,WPLESOF ~CTIVITY
d.   Disseminatedtechnicalassistance/information (1)


                                                        (2)


                                                        (3)   Howdid th~seactivities
                                                              improvelsupporttar~etin:?




e.   Conducteddata analysis                             Not ~pplieable
f.   FormedState-leveltask forceor advisory             (1)
     committee

                                                        (2)


                                                        (3)   How did these activities
                                                              improvw support targeting’?




~“   Implemented   specific objectives   in the State   (1)
     Plan


                                                        (2)



                                                        (3)   How did these activities
                                                              improve/support targeting?




                                               A-3
                     ~CTIVITY                                    EXXVIPLESOF ~CTIVITY
 h.   Issuedpolicyguidanceto AAAs                          (1)


                                                           (2)


                                                           (3)   Howdid these activities
                                                                 improve/support targeting?




i.    Developed and implemented      a State-wide          (1)
      tqetin:  initiative


                                                           (~)


                                                           (3)   How did these activities
                                                                 improve/support targeting?




j.    Coordinated activities with national,   state. and   (1)
      local minority organizations

                                                           (2)



                                                           (3)   How did these activities
                                                                 improve/support targeting?




                                               A--i
                  ~CTIVITY                                EX~NiPLESOF ACTIVITY
k.   Coordinatedactivitieswith national,state,and   (1)
     localrural organizations

                                                    (2)


                                                    (3)   Howdid thes~activiti~s
                                                          improv~/supporttar~~tin~?




1.   Coordinatedactivitieswith national,state,and   (1)
     localdisabilityorganizations

                                                    (~)


                                                    (3)   How did these activities
                                                          improve/support targeting?




m.   Staffing                                       (1)



                                                    (2J



                                                    (3)   How did these activities
                                                          improve/support targeting?




                                         A-5
                         ACTIVITY                           EX~l~PLES OF ~CTIVITY
n.         Establishedparticipationtargets         (1)


                                                   (~)

                                                   (3)      Howdid theseactivities
                                                            improve/supporttar~etin~’?




o.         Other, (ldetlti!J:                      nl(l)

     nl.
                                                   nI(2)

     n~.
                                                   n2( 1)



                                                   n2( 2)



                                                   (3)      How did these activities
                                                            improve/support targeting?




                                             A-6
4.   Describe and give examples of activities implemented by AAAs  tc) increase the participation

     of targeted populations. (Probe for informm”on on: outreach, speciali~”on     of services
     designed for specific target groups, staffing, provider and site selection). NOTE thti for
     each activity checked, there is a quesh”on in the example box to ascertain how the
     activities increased pa~”cipaton of targeted populations.)


                  T~RG~T ACTIVITnZS                       EX~31PLESOF TARGET ACTIVITIES
       a.   Outreach                               (1)

                                                   (~)


                                                   (3)    Howdid theseactivitiesincreaseparticipationof
                                                          targetedpopulations?




       b.   Specializationof ServicesDesignedfor   (1)
            SpecificT~rqetGroup

                                                   (~)


                                                   (3)    Howdid theseactivitiesincreaseparticipationof
                                                          targetedpopulations?




       c.   Staffing                               (1)


                                                   (3

                                                   (3)    Howdid theseactivitks increaseparticipationof
                                                          targetedpopulations?




                                                    A-7
             TARGET .4CTIV1TIES            EXX~PLES OF TARGET ~CTIVITIES
d.   ProviderS~Iectjon             (1)




                                   (3)     How did these activities   increase participation   of
                                           targeted populations?




e.   Site Selection                (1)


                                   p)




                                   (3)     How did these activities   increase participation   of
                                           ~rgeted populations?




f.                                 fl(l)

     fl .
                                   fl(2)

     f2.
                                   f2(l)


                                   fn(q)



                                   (3)     How did these activities   increase participation   of
                                           targeted populations?




                                  A-8
5.        Of those targeting activities used by the AAAs,   which were found to be the most successful
          in increasing the participation of targeted populations?

          a.
          b.
          c.
          d.            Don’t Know (Checki~applictile)

6.        Prior to this visit, we sent you a table entitled “Target Population Participation.” The data
          come from your State Progmrn Reports for the last three years. What factors affect your
          trends?

          d.
          b.
          c.
          d.

7.        The next few questions focus on the service needs of low-income-minoritim.     Does the
          State Agency have difficulty in obtaining the required low-income-minority data?

     a.                 Yes, Please explain the difficulties being encountered by the State Agency:




     b.                No
     c.                Don’t Know (Check i’ applicable)

8. Do the AAAs have difficulty in obtaining the required low income-minority data?

     a.                Yes, Please explain:




     b.                No
     c.                Don’t Know (Check if applicable)
  9.         What are examples of the “successful” methods used by service providers to satisfy the
             service needs of low-income minority individuals @ contained in the service plan of
             providem   complying   with OAA Sec. 306(a) (5)(A)(ii) and l?egulhtion 1321. 65(b))?


             ::


             ;:            Don’t Know (If Don ‘t Khow is checked, skzp to question 11)

 10.	 How did you determine the success of these methods? (Probe for analyses, trend studies,
         etc.)




 11.	    Has the State Agency identified barriers confronting AAAs or their providers in meeting the
         service needs of low-income minorities?

         a.               yes   (If Yes) What are the main barriers which have been identified?



                                           ::


                                           ::
                                           e.        Don’t Know (Check        Z~   applicable)
        b.               No
        c.               Don’t Know (Check if applicable)

12.     How does the State Agency define “ . . .substantial number of older individuals . . .who are of
        limited English-speting ability?”

        a.




        b.               Don’t Know (Check 1~applicable)




                                                     A-10
  13.	    HOW   many AAAs (if any) have been determined by the State Agency to have a substantial
          number of older limited English-speting individuals residing in the planning and service
          area? [Sec. 307(a)(20)]”

          a.           (Indic&e number)

                     (1)	   Of these, how many of them use the sewice of workers fluent in the
                            language spoken in the delivery of outreach services?

                            (a)

                            @)            Don’t Know (Check if applicable)


                     (2)	   Of these which have designated an individual empIoyed by or available to
                            the ~    on a full-time basis to counsel and assist older individuals of
                            limited English-speting  ability and to provide guidance to service
                            providers with regard to linguistic and cultural sensitivities? [Sec.
                            307(a) (20)(A) & (91

                            (a)
                            (b)           Don’t Know (Check if applicable)

         b.           Don’t Know (Check if applicable)

14.	     What are some examples of successful outreach techniques       used by AAAs in reaching
         targeted populations?




         d.           Don’t Know (If Don ‘t how         is checked, skip to question 16)


15.	     HOW do you determine      the success of these techniques?   (Probe for anaZyses, trend studies,
         etc.)




                                                     A-11
                                                                                           .


16.   If identified,    how does the State Agency                                  of the AAAs?

      a.




      b.                Don’t Know (Check
                                   ,      if.# amlica.ble)
                                                 xx           ,




17.   Did the State Agency conduct an annual evaluation last year of its effectiveness     in outreach
      to targeted populations, as stipulated in Section 307(a)(8)?

      a.                Yes (If Yes) What outreach activities were found to be most effective?

                       (1)
                       \/




                       (2)          Don’t Know (Check if applicable)

      b.                No
      c.                Don’t Know (Check if applicable)


18.   What are the most common deficiencies           of your AAAs’ targeting efforts?

      a.
      b.
      c.
      d.
      e.
      f.                 Don’t Know (Check if applicable)




                                                       A-12
19.   What formal technical assistance and training has the Stite Agency provided to AAAs in
      order to address these deficiencies?

      a.




      b.            Don’t Know     (Check if applicable)

20.   What kind of technical assistance and training on targeting is neecied by the State Agency?

      a.




      b.            Don’t Know     (Check if applicable)


21.   What do you see as the major success of the State Agency’s    targeting effort?

      a.




      b.            Don’t Know @ieck if applicable)




                                                 A-13
22.   What are the major obstacles to effective targeting that still must be addressed     (at       the
      State or A&4 level)?

      a.
      b.
      c.
      d.
      e.
      f.              Don’t Know (Check if appkdde)


23.   What specific            should AoA undertake to assist State Agencies’ and AAAs’ targeting
      efforts?

      a.
      b.
      c.
      d.
      e.
      f.              Don’t Know (Check   Zf   applicable)

24.   Are there any other issues or                regarding   targeting you would like to share with us’?




~NTERVIEW      COMPLETED]




                                                    A-14
                                                                                    ATTACHMENT A


                                              STATE TARGET POPULATION


(This attachment was provided as an enclosure to a letter sent to the State Agency prior to the
on-site visit. Pick it up at the time of the on-site visit.)


1.   Please provide the most current information that the State Agency has availab[e on targeted
     populations.  Enter the applicable data below:

     a. Total 60+ population:


                        TARGETEDPOPULilTIONS                                TOTAL     PERCENTOF
                                                                           NUMBER        60+
                                                                                    POPUL~TION
     b.    Minorities

           (1) American      Indian/Alaskan    Native

           (2) Asian/Pacific     Islander

           (3) African American,       not Hispanic     in origin

           (4) Hispanic

     c.    Frail/Disabled

     d.    Residents    of Rural Areas

     e.    Low-income       Non-iMinority

     f.    Low-Income       Minority

     ~“ Other, Specify:

           (1)

           (2)

           (3)




2.    For populations listed under “other” (1g.), provide an explanation for the designation of
      the specified population as a “target” population in your State.

      a.




                                                                    A-15
     b.




     c.




3.   Foreach targeted population, identify the source of thedata and the year that the data was
     available. (For example, a source could be identified as the Bureau of Census, 1990).


          TARGETED          POPULATIONS        DATA SOURCE                  DATA AVAKLABLE

     a.    60+     population

     b.    Minority     population

     c.    Frail/Disabled

     d.    Rural

     e.    Low-income       non-minority

     f.    Low-income       minority

     i?” Other. Spectfi:

           (1)

           (2)

           (3)
                                                                                ATTACHMENT B


                            TARGET POPULATION           PARTICIPATION


(l_his ~achment   is to be completed by AoA during the in-house review process.       The data will
be discussed with the State Agency ti the time of the on-site visit.)



                                                              1989       1990          1991

A.    Total 60+ Population (#)

B. Total Participants (#)

C. Participant Percent of Population(B/A)                            %          %             %


D. Total Participants by Program Title:

        1. Title B

        2. Title C I

        3. Title C II

        4.   Title D

        5. Title G                                            NA         NA


     POPULATION                  Title B    Title C 1    Title C2    Title D        Title G

E.    American Indian   ‘89                                                            NA
      Alaskan Native    ’90                                                            NA
                        ’91

F.    Asian/Pacific     ’89                                                            NA
                        ’90                                                            NA
                        ’91

G. African American     ’89                                                            NA
                        ’90                                                            NA
                        ’91

H. Hispanic             ’89                                                            NA
                        ’90                                                            NA
                        ’91


                                                 A-17
I. Frail/Disabled   ‘89          NA
                    ’90          NA
                    ’91

J. Rural            ’89          NA
                    ’90          NA
                    ’91

K . Low-Income      ‘89          NA
     Non-Minority   ’90          NA
                    ’91

L.   Low-Income     ‘89          NA
      Minority      ’90          NA
                    ’91




                          A-18
